/'~
  s'iIlV(CBs




t~~~
                       DEPARTMENTOF
                       DEPARTMENT OFHEALTH
                                    HEALTH&& HUMAN
                                             HUMANSERVICES
                                                   SERVICES                                           Office
                                                                                                      Offce of
                                                                                                             ofInspector
                                                                                                                InspectorGeneral
                                                                                                                         General

+" ~
 V"¡./""d;;a
                                                                                                      Washington,
                                                                                                      Washington, D.C.
                                                                                                                   D.C. 20201
                                                                                                                         20201
 




                                                              SEP
                                                              SEP 22 5 2008
                                                                     5 2008
     





               TO:
               TO:             Elizabeth M.
                               Elizabeth M. Duke, Ph.D.

                                                  Ph.D.
                               Administrator
                               Administrator

                               Health Resources and
                               Health Resources and Services
                                                    Services Administration
                                                             Administration


               FROM:
               FROM:           Daniel R.~    I! ~
                                        Levinson
                               Daniel R. Levinson~ ¡! ~
                               Inspector General
                               Inspector


               SUBJECT:        Review of
                               Review of the
                                          the Puerto
                                              Puerto Rico
                                                     RicoHealth
                                                          HealthDepartment's
                                                                Deparment's Compliance
                                                                             Compliance With
                                                                                         With the
                                                                                              the Ryan
                                                                                                  Ryan
                               White CARE
                               White CARE ActAct Payer-of-Last-Resort
                                                 Payer-of-Last-Resort Requirement
                                                                      Requirement (A-02-06-02000)


               Attached is
               Attached  is an
                            an advance
                               advance copy
                                        copy of
                                             of our
                                                 our final
                                                      final report
                                                             reporton
                                                                    onthe
                                                                        thePuerto
                                                                            PuertoRicoRicoHealth
                                                                                           HealthDepartment's
                                                                                                  Deparment's
               compliance with the
               compliance        the Ryan
                                      Ryan White Comprehensive AIDS   AIDS Resources
                                                                             Resources Emergency (CARE) Act
               payer-of-last-resort requirement.
               payer-of-Iast-resort  requirement. We will issue
                                                              issue this
                                                                    this report
                                                                         report to
                                                                                 to the
                                                                                     the Health
                                                                                         Health Department
                                                                                                Deparment within
               5 business days.

               Title II of the CARE
                               CARE Act,Act, sections
                                             sections 2611-2631
                                                      2611-2631 ofof the Public Health Service Act, provides grants
               to States and territories to fund the purchase of medications through AIDS Drug Assistance
               Programs
               Programs andand other
                                other health
                                       healthcare
                                              careand
                                                   andsupport
                                                        supportservices.
                                                                services. Pursuant
                                                                          Pursuanttoto4242U.S.C.
                                                                                          D.S.C. §§300ff-27(b)(6)(F),
                                                                                                    300ff-27(b)(6)(F),
               these grant funds
                            funds may not be used to pay for items or services that are eligible for coverage by
               other Federal, State,
                                State, or
                                       or private
                                          private health
                                                  health insurance.
                                                         insurance. This provision isis commonly
                                                                                        commonly referred
                                                                                                   referred to as the
               "payer of
                       of last resort" requirement.

               Our objective was to determine,
                                    determine, for grant years
                                                         years 2002-2004,
                                                               2002-2004, whether
                                                                          whether the
                                                                                  the Health
                                                                                      Health Department
                                                                                             Deparment
               complied with thethe Title
                                    Title IIII payer-of-last-resort
                                               payer-of-last-resortrequirement
                                                                    requirementthat
                                                                                thatfunds
                                                                                     fuds not
                                                                                          not be
                                                                                              be used
                                                                                                 used to
                                                                                                       to pay
                                                                                                          pay for
                                                                                                              for drugs
                                                                                                                  drugs
               that are eligible for coverage by other Federal, State, or private health insurance.
                                                                                           insurance.

               The Health Department did not always comply with the Title II   II payer-of-Iast-resort
                                                                                  payer-of-Iast-resort requirement.
                                                                                                        requirement.
               Of the 100
               Of     100 prescriptions that we sampled, 43 were correctly claimed to the Title
                                                                                              Title II
                                                                                                    II program
                                                                                                       program for
                                                                                                                for
               patients without other health care coverage for
                                                            for HIV/AIDS
                                                                HIV/AIDS drugs.
                                                                            drugs. However,    the remaining
                                                                                    However, the remaining 57  57
               prescriptions were incorrectly claimed to the Title II program for patients who
                                                                                            who had
                                                                                                  had other
                                                                                                       other health
               insurance that would have covered   the drugs.
                                          covered the drugs.

               As
               As a result, we estimated that the Health Department claimed $24,340,789 in   in unallowable
                                                                                                unallowable
               Federal
               Federal funding for
                                for grant
                                    grant years
                                          years 2002-2004.
                                                 2002-2004. This
                                                              Thisoverpayment
                                                                   overpayment occurred
                                                                               occurred because
                                                                                          because the
                                                                                                    the Health
                                                                                                        Health
               Department
               Department   had not developed   procedures to bil HIV
                                    developed procedures to bill HIVI / AIDS drugs to the insurance
                                                                                           insurance plans with
                                                                                                      plans with
               primary
               primary payment
                        payment responsibility.
                                 responsibility.
Page 2 – Elizabeth M. Duke, Ph.D.


We recommend that the Health Department:

       •	 refund $24,340,789 to the Federal Government and

       •	 develop procedures to bill HIV/AIDS drugs to the Federal, State, or private health
          insurance plans with primary payment responsibility.

In its comments on our draft report, the Health Department did not specifically address our
recommendations but said that it was not willing to accept our findings because of unresolved
issues concerning patients’ eligibility status. After reviewing additional documentation that the
Health Department and two private health insurance companies separately provided, we reversed
four of the error determinations included in our draft report. Accordingly, we reduced the
recommended refund to $24,340,789.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov or James P. Edert, Regional Inspector General for Audit Services,
Region II, at (212) 264-4620 or through e-mail at James.Edert@oig.hhs.gov. Please refer to
report number A-02-06-02000.


Attachment
#' saVr~..
                                                                                                         OficeororInspector
                                                                                                                   Office      Inspeor Generel
                                                                                                                                       Genersl




(~
                                                                                                                 Ofce or
                                                                                                                   OffIce or Audit
                                                                                                                             AuditServices
                                                                                                                                   Servics
                   DEPARTMENT OF HEALTH & HU SRRVICES

¥~~~
:.ll"'cf3Ul;
                                                                                                                    RegionIIII
                                                                                                                   Region
                                                                                                                   Jacob
                                                                                                                    Jacob K.
                                                                                                                          K.Javlt&
                                                                                                                             Javlt&Federel
                                                                                                                                    FederslBuilding
                                                                                                                                            Building
                                                                                                                   26
                                                                                                                    26Federal
                                                                                                                       FederalPlaza
                                                                                                                              Plaza
                                                                                                                   New
                                                                                                                   NewYork.,
                                                                                                                       York. NY
                                                                                                                             NY10278
                                                                                                                                10278 ..
                                                          SEP 2 9
                                                          SEP 2   2008
                                                                9 2008



        ReportNumber:
        Report Number: A-02-06-02000
                       A-02-06-02000

         Rosa Perez-Perdomo,
        Rosa  Pérez-Perdomo, M.D.,
                              M.D., M.P.H.,
                                    M.P.H., Ph.D.
                                            Ph.D.

        Secreta
       Secretary
        .Puerto RicoHealth
       .Puerto Rico   HealthDepartment
                             Deparment
        P.O.  Box  70184
        P.O. Box 70184
        San Juan,
        San  Juan, Puerto
                   PuertoRico
                          Rico 00936-8184
                               00936-8184

        Dea Dr.
        Dear Dr. Pérez-Perdomo:
                 Perez-Perdomo:

       Enclosedisisthe
       Enclosed      tÍe U.S.
                         U.S.Department
                               Deparment of of Health
                                               Health and
                                                       andHuman
                                                            HumanSelVices
                                                                   Services(HHS),
                                                                             (HHS),Office
                                                                                      OfficeofofInspector
                                                                                                  Inspetor
       General,   final report entitled "Review  of the  Puerto Rico Heath  Deparment's    Compliance
       General, final report entitled "Review of the Puerto Rico Health Department's Compliance With      With
       the Ryan
       the RyanWhite
                   WhteCARE.Act
                          CARAct Payer-of-Lat-Resort
                                      Payer-of-Last-Resort Requiement."
                                                             Requirement." We
                                                                            We wil
                                                                                 willforward
                                                                                      forward aa copy  of this
                                                                                                  copy of  ths
       report to the  HHS  action  offcial noted on  the following page for review  and  any action
       report to the HHS action official noted on the following page for review and any action deemeddeemed
       necessar.
       necessary.

       'te HHS
       'the   HIlSaction
                       actionoffcial
                                  officialwil  willmake
                                                      makefinal finaldetemmation
                                                                        determinationasastotoactions
                                                                                              actionstaen
                                                                                                      takenonoliallallmatters
                                                                                                                       mattersreported.
                                                                                                                                reported.
       We    request that you respond to this official within 30 days from the date of this
       We request that you respond to ths offcial withn 30 days from the date of

                                                                                                                       letter. Your
                                                                                                                ths letter. Your
       response
       response shouldshould present
                                  present any any comments
                                                     comments or      or additional
                                                                           additional information  that you
                                                                                      information that  you believe
                                                                                                             believe may may have
                                                                                                                               have aa
       beag
       bearing   ononthe thefinal
                               finaldetennnation.
                                       determination.

       Pursuant to the principles of the Freedom
       Puuant to the principles of 
                Freedom of ofInformation
                                                                   Inormation Act,
                                                                               Act, 55 U.S.C.
                                                                                       U.S.c. §§ 552,
                                                                                                  552, as
                                                                                                        as amended
                                                                                                            amendedby by
       Public     Law      104-23     i, OrG  report generaly   are  made  available to the   public
       Public Law 104-231, OrG reports generally are made available to the public to the extent the  to the  extent the
       information
       information is      is not
                               notsubject
                                     subjecttotoexemptions
                                                 exemptionsininthetheAct
                                                                      Act(45
                                                                           (45CFR
                                                                               CFR   par5).5).Accordingly,
                                                                                  part         Accordigly, this
                                                                                                             ths report
                                                                                                                  report
       wil   be   posted      on   the  Internet at htt://oig.hhs.f!ov.
       will be posted on the Internet at http://oig.hhs.gov.

       IfIfyou
            youhave
                have any
                     any questions or comments
                         questions or          about this
                                      comments about  ths report,
                                                          report, please do not
                                                                  please do not hesitate
                                                                                hesitateto
                                                                                         tocall
                                                                                            ca me,
                                                                                                me, or
                                                                                                    or
      contact
      contact James
              James C.
                    C. Cox,
                       Cox, Audit
                            Audit Manager,
                                  Manager, atat (518) 437-9390, extension
                                                (518) 437-9390, extension 222,
                                                                          222, or
                                                                               or through
                                                                                  though e-mail
                                                                                          e-mail at
                                                                                                 at
      James.Cox(goie:.hh.e:ov. Please refer to report number A-02-06-02000  in all correspondence.
      James.Cox@oig.hhs.gov. Please refer to report number A-02-06-02000 in all correspondence.

                                                                  Sincerely,
                                                                  Sincerely,



                                                                  ~~.r;~
                                                                  b~. r;~. Inspector General ~~
                                                                  Regional Inspetor
                                                                  Regional
                                                                    for
                                                                     for Audit
                                                                         AuditServices
                                                                               SelVices

      Enclosure
      Enclosure
Page 2 – Rosa Pérez-Perdomo, M.D., M.P.H., Ph.D.


Direct Reply to HHS Action Official:

Ms. Nancy J. McGinness
Associate Administrator
Office of Federal Assistance Management
Health Resources and Services Administration
5600 Fishers Lane
Parklawn Building, Room 11-03
Rockville, Maryland 20857
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF THE PUERTO RICO 

    HEALTH DEPARTMENT’S 

    COMPLIANCE WITH THE 

    RYAN WHITE CARE ACT 

    PAYER-OF-LAST-RESORT 

        REQUIREMENT 





                    Daniel R. Levinson

                     Inspector General 


                     September 2008

                      A-02-06-02000

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 


BACKGROUND 


The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public
Law 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest
source of funding specifically for people with HIV/AIDS, the CARE Act assists more than
500,000 individuals each year. Within the U.S. Department of Health and Human Services,
the Health Resources and Services Administration administers the CARE Act.

Title II of the CARE Act, sections 2611–2631 of the Public Health Service Act, provides
grants to States and territories to fund the purchase of medications through AIDS Drug
Assistance Programs and other health care and support services. Pursuant to 42 U.S.C.
§ 300ff-27(b)(6)(F), these grant funds may not be used to pay for items or services that are
eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer of last resort” requirement.

During our audit period (grant years 2002–2004), the Puerto Rico Health Department (the
Health Department) claimed Title II drug expenditures totaling $73,561,082.

OBJECTIVE

Our objective was to determine, for grant years 2002–2004, whether the Health Department
complied with the Title II payer-of-last-resort requirement that funds not be used to pay for
drugs that are eligible for coverage by other Federal, State, or private health insurance.

SUMMARY OF FINDING

The Health Department did not always comply with the Title II payer-of-last-resort
requirement that funds not be used to pay for drugs that are eligible for coverage by other
Federal, State, or private health insurance. Of the 100 prescriptions that we sampled, 43 were
correctly claimed to the Title II program for patients without other health care coverage for
HIV/AIDS drugs. However, the remaining 57 prescriptions were incorrectly claimed to the
Title II program for patients who had other health insurance that would have covered the
drugs.

As a result, we estimated that the Health Department claimed $24,340,789 in unallowable
Federal funding for grant years 2002–2004. This overpayment occurred because the Health
Department had not developed procedures to bill HIV/AIDS drugs to the insurance plans with
primary payment responsibility.




                                                i
RECOMMENDATIONS

We recommend that the Health Department:

       •	 refund $24,340,789 to the Federal Government and

       •	 develop procedures to bill HIV/AIDS drugs to the Federal, State, or private health
          insurance plans with primary payment responsibility.

HEALTH DEPARTMENT COMMENTS

In its comments on our draft report, the Health Department did not directly address our
recommendations but said that it was not willing to accept our findings because of
unresolved issues concerning patients’ eligibility status. The Health Department’s comments
included documentation on five prescriptions that it believed were covered under Title II, as
well as a corrective action plan to address the payer-of-last-resort requirement. The Health
Department’s comments appear as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the documentation that the Health Department provided on five prescriptions
and found no basis to change our error determinations. However, after reviewing additional
documentation that the Health Department and two private health insurance companies
separately provided, we reversed four other error determinations included in our draft report.
Accordingly, we reduced the recommended refund to $24,340,789.




                                               ii
                                               TABLE OF CONTENTS


                                                                                                                           Page


INTRODUCTION .............................................................................................................1 


          BACKGROUND.....................................................................................................1 

              Title II Grant Funds ..................................................................................... 1 

              Payer-of-Last-Resort Requirement.............................................................. 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY...................................................2 

               Objective......................................................................................................2       

               Scope ...........................................................................................................2 

               Methodology................................................................................................2 


FINDING AND RECOMMENDATIONS ......................................................................4 


          IMPROPER TITLE II CLAIMS FOR PRESCRIPTION DRUGS.........................4 


          RECOMMENDATIONS ........................................................................................5 


          HEALTH DEPARTMENT COMMENTS..............................................................5 


          OFFICE OF INSPECTOR GENERAL RESPONSE..............................................5 


APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – HEALTH DEPARTMENT COMMENTS




                                                                 iii
                                             INTRODUCTION 


BACKGROUND 


The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990, Public
Law 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest
source of funding specifically for people with HIV/AIDS, the CARE Act assists more than
500,000 individuals each year. Within the U.S. Department of Health and Human Services,
the Health Resources and Services Administration (HRSA) administers the CARE Act.

Title II Grant Funds

Title II of the CARE Act, sections 2611–2631 of the Public Health Service Act, provides
grants to States and territories to fund the purchase of medications through AIDS Drug
Assistance Programs (ADAP) and other HIV/AIDS health and support services, such as
outpatient care, home and hospice care, and case management.

In Puerto Rico, the Health Department administers the Title II program. The majority of
Puerto Rico’s Title II program funds are designated for drugs to treat HIV/AIDS through the
ADAP. For example, ADAP expenditures for the grant year ending March 31, 2005,
accounted for about 87 percent of Title II expenditures.

Payer-of-Last-Resort Requirement

Title II of the CARE Act stipulates that grant funds not be used to pay for items or services
that are eligible for coverage by other Federal, State, or private health insurance. This
provision is commonly referred to as the “payer of last resort” requirement. Specifically,
section 2617(b)(6)(F) of the Public Health Service Act (42 U.S.C. § 300ff-27(b)(6)(F))
states:

         [T]he State will ensure that grant funds are not utilized to make payments for
         any item or service to the extent that payment has been made, or can
         reasonably be expected to be made, with respect to that item or service –
                (i) under any State compensation program, under an insurance policy,
                     or under any Federal or State health benefits program; or
                (ii) by an entity that provides health services on a prepaid basis. 1



1
 Subsequent to our audit period, the Ryan White HIV/AIDS Treatment Modernization Act of 2006,
§§ 204(c)(1)(A) and (c)(3), P.L. No. 109-415 (Dec. 19, 2006), redesignated this provision as
section 2617(b)(7)(F) (42 U.S.C. § 300ff-27(b)(7)(F)) and amended subparagraph (ii) to prohibit the State
from using these grant funds for any item or service that should be paid for “by an entity that provides health
services on a prepaid basis (except for a program administered by or providing the services of the Indian
Health Service).”




                                                         1

In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS 2
Program Policy Guidance No. 2 on June 1, 2000, reiterates the statutory requirement that
“funds received . . . will not be utilized to make payments for any item or service to the extent
that payment has been made, or can reasonably be expected to be made . . .” by sources other
than Title II funds. The guidance then provides: “At the individual client level, this means
that grantees and/or their subcontractors are expected to make reasonable efforts to secure
other funding instead of CARE Act funds whenever possible.”

In a September 28, 2005, report, we found that for grant year 2001, the Health Department
had not established procedures to ensure compliance with the Title II payer-of-last-resort
requirement. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for grant years 2002–2004, whether the Health Department
complied with the Title II payer-of-last-resort requirement that funds not be used to pay for
drugs that are eligible for coverage by other Federal, State, or private health insurance.

Scope

Our review covered the period April 1, 2002, through March 31, 2005 (grant years 2002–
2004). On its financial status reports for that period, the Health Department claimed ADAP
expenditures totaling $73,561,082 for HIV/AIDS drugs dispensed at eight outpatient clinics. 4

We did not assess the Health Department’s overall internal controls for administering Title II
funds. Rather, we limited our review to gaining an understanding of those significant controls
related to the claiming of HIV/AIDS drug costs. We conducted our fieldwork at the Health
Department’s offices in San Juan and at its eight outpatient clinics located throughout Puerto
Rico.

Methodology

To accomplish our objective, we:

           •	 reviewed applicable Federal laws, regulations, and guidance and the Puerto Rico
              Medicaid State plan;




2
    DSS is the Division of Service Systems, a component of HRSA’s HIV/AIDS Bureau.
3
    “Review of Ryan White Title II Funds at the Puerto Rico Health Department” (A-02-03-02002).
4
 The Health Department claimed $20,444,493 in additional Title II expenditures for treatment services for
people with HIV/AIDS, including outpatient care, home and hospice care, and case management.


                                                        2

        •	 reviewed documentation provided by the Health Department for grant years 2002–
           2004, including Title II grant applications, notices of grant award, financial status
           reports and supporting accounting records, and the ADAP drug formulary (a list of
           drugs authorized for purchase by the program);

        •	 held discussions with Health Department officials to identify policies, procedures,
           and guidance for billing HIV/AIDS drugs to other Federal or State programs and
           private insurance plans;

        •	 analyzed the Health Department’s procedures for accounting for and dispensing
           drugs to Title II patients;

        •	 visited the eight outpatient clinics to identify HIV/AIDS drug prescriptions
           claimed by the Health Department;

        •	 identified a sampling frame of 105,440 HIV/AIDS prescriptions for which claims
           totaled $73,561,082;

        •	 selected a simple random sample of 100 prescriptions from the sampling frame of
           105,440 prescriptions and, for the sampled prescriptions:

                 o	 used a Health Department database to identify patients enrolled in the
                    Puerto Rico Government Health Insurance Plan (GHIP), which includes
                    Medicaid and the State Children’s Health Insurance Program, 5

                 o	 used Health Department clinic files to identify patients enrolled in private
                    health insurance plans,

                 o	 confirmed HIV/AIDS drug coverage and the amount of that coverage with
                    officials of the GHIP and private health insurance plans, and

                 o	 identified from Health Department payment invoices the costs of drugs
                    dispensed; and

        •	 estimated, based on the sample results, the total unallowable Federal funding
           claimed.

Appendix A contains details on our sample design and methodology, and Appendix B
contains our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
5
 The GHIP, previously known as the Puerto Rico Health Reform plan, is a medical and drug assistance program
implemented in 1994 for income-eligible patients. Administered by the Health Department, the program
consists of Medicaid, State Children’s Health Insurance Program, Commonwealth, and private funding.


                                                     3

based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our finding and conclusions based on our audit objective.

                                FINDING AND RECOMMENDATIONS

The Health Department did not always comply with the Title II payer-of-last-resort
requirement that funds not be used to pay for drugs that are eligible for coverage by other
Federal, State, or private health insurance. Of the 100 prescriptions that we sampled, 43 were
correctly claimed to the Title II program for patients without other health care coverage for
HIV/AIDS drugs. However, the remaining 57 prescriptions were incorrectly claimed to the
Title II program for patients who had other health insurance that would have covered the
drugs.

As a result, we estimated that the Health Department claimed $24,340,789 in unallowable
Federal funding for grant years 2002–2004. This overpayment occurred because the Health
Department had not developed procedures to bill HIV/AIDS drugs to the insurance plans with
primary payment responsibility.

IMPROPER TITLE II CLAIMS FOR PRESCRIPTION DRUGS

The payer-of-last-resort requirement set forth in 42 U.S.C. § 300ff-27(b)(6)(F) provides that
Title II funds may not be used to pay for items or services that are eligible for coverage under
other Federal, State, or private health insurance.

Contrary to the payer-of-last-resort requirement, the Health Department claimed Title II
funding for 57 sampled prescriptions dispensed to individuals who had other health insurance
that would have covered the drugs. The other health insurance plans had primary payment
responsibility for these prescriptions. The 57 prescriptions included 50 prescriptions for
patients covered by Medicaid under the GHIP 6 and 7 prescriptions for patients covered by
private health insurance plans. 7 Based on these sample results, we estimated that the Health
Department claimed unallowable Federal funding totaling $24,340,789.

The Health Department claimed unallowable expenditures because it had not developed
procedures to bill HIV/AIDS drugs to other insurance plans that would have covered the
drugs. Although the Health Department had contracted with a billing agent to bill Title II
medical visits and laboratory tests to plans with primary payment responsibility, the contract
did not apply to billing for HIV/AIDS drugs.




6
 Pursuant to a Puerto Rico Medicaid State plan amendment and contracts between the Health Department and
insurance companies that pay for services rendered to GHIP patients, the GHIP covers all drugs required for the
treatment of HIV/AIDS patients except for seven protease inhibitors.
7
    A total of four private insurance plans would have covered the seven prescriptions for HIV/AIDS drugs.


                                                         4

RECOMMENDATIONS

We recommend that the Health Department:

       •	 refund $24,340,789 to the Federal Government and

       •	 develop procedures to bill HIV/AIDS drugs to the Federal, State, or private health
          insurance plans with primary payment responsibility.

HEALTH DEPARTMENT COMMENTS

In its comments on our draft report, the Health Department did not directly address our
recommendations but said that it was not willing to accept our findings because of unresolved
issues concerning patients’ eligibility status. The Health Department agreed that 12
prescriptions were covered by Medicaid under the GHIP (and therefore not covered under
Title II). However, the Health Department disputed 5 of the 61 errors included in our draft
report. The Health Department provided documentation on these prescriptions (incorrectly
listed as six prescriptions in its spreadsheet), which it believed were covered under Title II.

The Health Department commented that after a March 2008 meeting with us (which occurred
after issuance of our draft report), we had agreed to reduce our findings by $4 million. The
Health Department also provided a corrective action plan, which listed key activities,
expected completion dates, status updates, and responsible parties, to address the payer-of-
last-resort requirement.

The Health Department’s comments, except for personally identifiable information, appear as
Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

We reviewed the documentation that the Health Department provided on five prescriptions
and found no basis to change our error determinations. However, after reviewing additional
documentation that the Health Department and two private health insurance companies
separately provided, we reversed four other error determinations. Accordingly, we reduced
our estimated overpayment by nearly $4 million, from $28,249,444 to $24,340,789. We
maintain that the Health Department should refund this overpayment and comply with the
Title II payer-of-last-resort requirement.




                                               5

APPENDIXES 

                                                                               APPENDIX A
                                                                                 Page 1 of 2

                       SAMPLE DESIGN AND METHODOLOGY 


POPULATION

The population consisted of all federally funded prescriptions for AIDS Drug Assistance
Program (ADAP) drugs dispensed to HIV/AIDS patients and claimed from April 1, 2002,
through March 31, 2005.

SAMPLING FRAME

The sampling frame consisted of 105,440 prescriptions for federally funded ADAP drugs with
claimed expenditures totaling $73,561,082 for the period April 1, 2002, through March 31,
2005.

SAMPLE UNIT

The sample unit was an individual prescription for ADAP drugs dispensed to an HIV/AIDS
patient.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 prescriptions.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Inspector General, Office of Audit
Services, statistical sampling software, RAT-STATS, version 5. We used the random number
generator for our simple random sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the prescriptions in our sampling frame, including prescriptions
for drugs listed in both the ADAP-funded and the State-funded formularies (mixed
prescriptions). We did not number prescriptions containing only drugs listed in the State-
funded formulary. We selected the frame items that correlated to the random numbers. We
then created a list of sample items.

CHARACTERISTICS TO BE MEASURED

We considered a sample item improper if the patient had other Federal, State, or private health
insurance that covered the dispensed drugs. The amount of the improper payment was the
amount that the other health plan would have paid.
                                                                            APPENDIX A
                                                                              Page 2 of 2

Drugs purchased with State-only funds that appeared on a mixed prescription were not
counted as errors.

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the total unallowable Federal reimbursement for drugs that
were not claimed in accordance with the payer-of-last-resort requirement.
                                                                            APPENDIX B 



                       SAMPLE RESULTS AND ESTIMATES 



                                    Sample Results

                                                                           Unallowable
                                                           Number of
                                              Value of                       Federal
Prescriptions      Value of      Sample                     Sampled
                                              Sampled                      Funding for
  in Frame          Frame         Size                    Prescriptions
                                            Prescriptions                    Sampled
                                                            in Error
                                                                           Prescriptions

  105,440         $73,561,082       100        $74,064           57          $28,560



                                        Estimates
                (Limits Calculated for a 90-Percent Confidence Interval)

                       Point estimate         $30,113,864
                       Lower limit            $24,340,789
                       Upper limit            $35,886,939
                                                                                          APPENDIX C
                                                                                            Page 1 of 9




                                                                           -...:~
                                                                            -~
                                                                               ~

                                                                       c      ... _ -
                                                                Puerto Rico Deplrtmenl of Health
April 14, 2008



James P. Ekfert
Regional Inspector General
 for Audit Services
Department of Health & Human Services
OffICe of Inspector General
Office of Audit services
Region II
Jaoob K. Javils Federal Burlding
26 Federal Plaza
New York, NY 10278

REPORT OIG-HHS DRAFT REPORT NO. 02.Q6-02000

Dear Mr. EJdert:

On October 31, 2007 the U.S. Department of Health and Human Services, Office
of Inspector General, Office of Audit Services issued a draft report, "Review of
Puerto Rico Health Department Compliance with Payer of Last Resort
Reguiremenf for the period from April 1. 2002 through March 31, 2005.

On March 18, 2008 personnel from the Puerto Rico Department of Health
(PROOH) Auxiliary Secretarial for Family Health and Integrated Services, the
Central Office for AIDS Affairs and Communicable Diseases (OCASET for its
Spanish acronym) and Ryan While Part B Program hold a meeting with
representatives of the OIG Region If led by Or. Greduvel Duran Guzman, MO.
MPH. and Margie Col6n. JD, CFE. CGFM from the PRDOH and OIG
respectively.

The purpose of the meeting was to discuss the alleged findings contained in the
above referred draft report. In the meeting tile parties discussed the followings
topics:

   •   OIG's Draft Report
   •   Circular letter Puerto Rico Health Insurance Administration (PRHI) POL
       Exclusion of Coverage for HIVIAIDS Drugs VireadITruvada
   •   Private Health Insurance Coverage


                   p.o. Box 70184 SanJuan, PR 00936-8184· www..salud.goy-p"
                                                                                         APPENDIX C
                                                                                           Page 2 of 9




   •   Uninsured Patients
   •   PRHI's - Policy after July lit, 2003
   •   PRHI's - Policy prior to July 1st , 2003

OIG's representatives discussed and later provided the corresponding
documentation supporting their revtew's findings. PRDOH questioned OIG's
review's methodology and its corresponding findings. OIG provided some
answers to PRDQH's questioned concerning such review.

PRDOH is not wilting to accept OGl's review findings since there are a number of
unsolvecl issues concerning insurability patients' status. Examples of theses
issues are numerous and varied for instance, five (5) out of eighteen (18) cases
(28% of the sample) review by PRHI qualified for pharmacy coverage under
Ryan White - Part B (See Attachment 1 and 2). On April 9, 2008, OIG
preliTlinary accepted errors in its findings that translated to four million dollar in
PRDOH's favor.

PROOH has used funds granted under Ryan White - Part 8 10 provide Htv/AIOS
patients with medications. PRDOH implements public health policies and
strategies that encompasses the used responsible use of Ryan White - Part 8
funds to prevent HIVlAids progression and mprove HIVIAIDS patient's quality of
life.

In July 2007 PRDOH successfully launched an operational plan for Ryan While
Program (see attachment 3).

Should you have any further questions regarding this matter, please contact
Greduvel Duran Guzman, MD at (787) 274·5500 or e·mail gduran@salud.gov.pr.


Sincerely,



ROS~O'
Secretary
                        MD, MPH, PhD


IATTACHMENTS




                                                                                     2
                                                                                 APPENDIX C
                                                                                   Page 3 of 9




~;            ADMINISTRACION DE SEGUROS DE SAlUD
                       ESTADO lIBRE ASQCIADO DE PUERTO RICO
~ASES

  11 de abril de 2008



  Dra. Aida GonzaIez de Gregory
  Suhsecretarta de Salud
  Departamento de Salud
  P.O. Box 70184
  San Juan, Puerto Rico 00936-8184

  Estimada doctora Gonzalez de Gregory;

  Rectblmos la soUcitud por parte de representantes del Programa ADAP,
  del Departamento de Salud, para que certitlquemos la informacion de
  elegibilidad de dlectocho (18) beneficiarios como parte de la audltoria
  que lleva a cabo la Oflcina del Inspector General al Programa ADAP.

  Detallamos los resultados de nuestra vertflcacl6n en los sistemas de
  eleglhll1dad de ASES.

        ., De estos dleciocho (18) casos certificamos que dace (12) se
           encontraban eleglbles y asegurados a la fecha del servielo (fecha de
           la receta) bajo el Plan de Salud del Gobiemo.
        0/ Tres (3) no estaban elegibles y atms tres (3) no Cuerou Identificados
           en nuestros sistemas.

  La informacion de estos casos ha sldo incluida en la tabla original
  provtsta por personal de ADAP. La tabla antes menelonada ha sido
  veriflcada por nuestro personal y eertillcamos que Ia mJsma contlene la
  infonnaelon eorrecta de nuestros sistemas de elegibilidad. (Ver aneJo)

  Cordlalmente,



      . Minerva ~era GonzaIez
  D eetora EJecutlva


  '""
  -
  PO Box 195661, San Juan, P.R. 00919-5661   Tel. (787) 474-3300   Fax (787) 474-3346
                                                                                                         APPENDIX C
                                                                                                           Page 4 of 9




                     OFFICE OF INSPECTOR GENERAL TRANSLATION
                           OF HEALTH IlEPAH.TM.ENT                 ATTACHi\l"~NT




             GOVE;RNMENT HE;AI:rH INSURANCE; PLAN ADMINISTRATION
                                COMMONWeAl-TH OF pueRTO RICO


April II. 2U08

Dr Aid", Gon"i1Ie"-\ de G,·egol)'
Deputy Secretary of Health
Health Department
P,O. Box 70184
San Juan, Puerto Rico 00936-8184



We are in receipt of your request from the Health Department's ADAP Program to certify the
eligibility infanniltian for eighteen (18) beneficiarie!! as ]XIrt of the OfficJe of the Inspe<..1.O"
General <:Iudit of the ADAP Projl,nun,

Del.>Jiled below are the   re~ult!l of   OUI· verification of the eligibility infOl"ln<ltion in ASES "

        •    For eighteen (18) cases, we oertified that twelve (12) were eligible and insured as of
             the d""te of the 5elvioe (date of presc"iption) under the Govemment He<:llth Insu,'ance
             Plan.
        •    Three (3) were not eligible and three (3) others were not identified in our system.

The inf"nn'Jti"n for these C<I!lefl has been induded on the table p,uvided by ADA? per!lOnnel.
The table hac>. been verified by our pe",",onnel and we certified that the information ic>. COl-rect as
per our eligibility c>.yc>.tem, (See attachment)

Cordially,

Minetva Rivera Gonzalez, £sq.
Executive Director


Attachment




'Sp!ni.~h acronym for the Government Health In.~urnnce Plan Administrnlioll,
                                                                                      APPENDIX C
                                                                                        Page 5 of 9




PRESCRIP                                                                          HEALTH
     no,                                                                        INSURANCE
    NUMBER                                                                       COMPANY
       5
                                                                                 ~­
       7
                                                                                 ~-.,
      """                                                                          '"
                                                                                   '"
       ""                                                                          '"'"
        ""'"                                                                       '"
                                                                                   ~

                                                                                   .,
                                                                                   '"
        7"                                                                         ~,




     "77

     "",
_ '-..-
_     97
       .. co. _ _

      ......   ...   _-

                    Office of Inspector General note: Personally identifiable
                    information has been redacted from this page.
                                                                                                                                                              APPENDIX C
                                                                                                                                                                Page 6 of 9



                                                                          RYAN WHITE PARr 8 F>ROOAAM
                                                                      CORRECTIVE ACTION WORKI'\.AN 2Q(j8·200s
                                                                                          APRIL S, 200S


                                                                                                                                                               .'         ~~
                                                                                                                                                              J§) RE~NSIBLE
                                                                                                                                                                                  *"
                                                                                                                                                               " -     ,;,"',. "," '"
                                                                                                                                                  S8crm.ryof 1i"",Itfl.nd AsES
                                                                                                                                                  EX6Ctl!lve 0irtI<:l0f




2. Itnplooownlalion 01 a            2.1. FO'sl Pt>..e: To oonnel a PBM 10 <:<>ordln..        s.p.....1>Or    2.1.Cll!nl!fllIal1. A""llYo11he      ASES e.e<:utIve OiteC1Or and
Pharmacy BetIllIil Ma~e,            ptlomla¢)' _ _ots for GHIP AOAP eligil>la p'Uients,      2()07           oontnlCl oivr>ed _         lh.       ASES HIVIAIDS Projad
(l'BM) '1111e PROCH Reogional                                                                                Haaltflln""rance                     OirKlOf
Immunology CUnics (RIC~). Thi.                                                                               Adrninlstralion (ASES. tor 110
Plojae! will a•...,'" tho Inl"",,,1                                                                          Spanisll a<:<onym) find MC·21,
oontrol. necessary 10 gU'''"I''                                                                              Inc:.• local PBM Is atta<:lHld ..
Ihat Ihe Rvan wtlile F>.rt B                                                                                 Appendbc B.
 \DAf' P'O\l<am IIInd• .., be
used •• Ihe POy1l( 01 ...1 ,OMIt. 2.1 .•. To oonUOd. """<lor'" to p«Mde tho RX-3/!           Ja"u.ry 2()08   V .•. ~ A""llYo1
                                    pharmacy sottwa", .1 CLETS. Bay.rn6n. Atetibo,                           1hec:onlraaslgne<l between
                                    M.yagilo•• n<! Ponoo RIC•.                                               ASES and On-Time So1t 1""­
                                                                                                             Is .nacIIed a. Appendbc C.

                                   V.b. To 1n.1OI <::<>mPIJter haJdw.", .1 CLEfS.                            2. 1.b. .Ill..il!llmn;. Cornpul..­   ASES.<>:I PROCH HIV/AIDS
                                   B'V.m6n, Arecioo. Mayagliaz and Ponoo RIC•.                               h.Jdwo", h•• - . in.tallad In        ProjBcI Dfteoctora
                                                                                                             CLETS. Ponoo .ocr Mayagiloz.
                                                                                                             Aredbo .nd B.yarn6n .'"
                                                                                                             pending '" 1IIe <:ontlguration 01
                                                                                                             111. h.",,,,,,,,,.
                                                                                                            APPENDIX C
                                                                                                              Page 7 of 9




                                                                                  .,
                                                                 conebo<1ltive "Vreem""t was     Projecl OiIe<:IOI'S, PRDOH
                                                                 wrl_. Prellminl'Y               Leg.1 Ind ConIrICl'e 011"""",",
                                                                 Ig""""""rs haYI lireedy been    PRDOH 0"'\1 Oiolflbution
                                                                 I'OIcIIe<I_ pII&rmlcies In      Conler 0 _ . Ind Ryln
                                                                 CbgUll" Humoeao and             White PU B 0ireeI0r 100
                                                                 Fila""" Itlocumontlybolng       ADAP PfOgf3m Coo<dinatc/.
                                                                 . . - by thl PRooH Legal
                                                                 llMolon 10 add now _ s .
                                                                 _     100 condition.


2,2. 5e<:ood Pt>a...: To con1'''''
                           & PSM to coo<dIMte                    2.2, 1n.J!l:l!IlrnI- P_ng the   So<retI'Y 01 Hea! 1. PROOH
pharmaev _fits lor non OHIP ADAP oIIgl\>lll                      final_""IiOII"""                HIV/A,lDS Projed )freelC/,
P/lti<I"lS,                                                      "V,ee.-.I "'V&rding_.           PRooH Legll "" I Conlrlld'.
                                                                 on<! irs roIat$<! <:<>S...      oIfOOlS, OCA,SET Executive
                                                                                                 0ireeI0<, PRDOH 0NsI
                                                                                                 OiSlribuliOll Genler 0 _
                                                                                                 100 Rya" _        PI~ B

                                                                                                 0iIea0r end AOAP
                                                                                                 CootdlnalQr

2,2.&. To reqoesl& proposaIl<om &paM.           Novembo< 2007    2.2... ~,1"                 PROOH HIVI....OS Projed
                                                                 _ 2 0 0 7 . t~l: PRooH          01""""'.
                                                                                                      PROOH D"'Il
                                                                 r e q _ I PfOPOS"I from MC_ Distnbulion Cen,.,. Oiro<:lot
                                                                 ".                          Ind Ryan While PI~ a
                                                                                                 OiItoclof Ind 100M>
                                                                                                 C<>ordinllO<

2.2.b. To ""alV&I. l1Mt prop<>$Ol $llbmltted,   o.c.mlMo, 2007   2_2.b,~.ln                      ASES 100 PRDOH HIVIAIDS
                                                                 o..:.mber 2007. MC_21           Projed DIfe<:tors, PIlDOH
                                                                 .ubmllod I proposallO the       Drug Oi.lriOOtion c..,'er
                                                                 PRooH. A       "'the            0 _ on<! R an W~ilo PI"
                                                                                                                                                                   APPENDIX C
                                                                                                                                                                     Page 8 of 9




                                                                                                                  "-'<lb< O.                           Coordina1e<
                                                                                                                                                                  •
                                      2.2.c. TOl""eed<lClslonmoa<d.,gtlle"""""",w;                 January 2008   2.2.<;.~.            In Jonuary      ASES """ PROOH HIV/AIDS
                                      "'ao~lilYoIlhIo_ _.                                                         2008. Ihor 0 """""-'gh               Pn>joct D i _ . PRDOH
                                                                                                                  owlualion 000 ....!yoi. b)'          Drug Dialtibulion Corll...
                                                                                                                  PRDOH and ASEs        ""N.
                                                                                                                  prop'mll from MCo2l w•• no!
                                                                                                                                                1Il0   Difl'ClOr ond Ryan Whil<l pan
                                                                                                                                                       B Di,octo(lncl /l,fJAP
                                                                                                                  1"""'l>l<I<I for lis tOgh <OSlO.     Coordinator
                                      2,2.d. To ","1<1 Ind lign e com'acIlO d...1with 1M           May 2003       2.2.d,~.        In April             sea-otary 01 Heallll. ASES and
                                      PBM !hIIlwilI t>8 081_.                                                     2008. !he PRDOH will ""lue.1         PRDOH HIVIAlDS P,"*",
                                                                                                                  o rIYi$ion 0I1ho p<opotal "'al       DitIClOrS. PRDOH !.eIl"land
                                                                                                                  MC-2l aubml_. SeMon,                 C""tracrsofli<:&s. OCASET
                                                                                                                  te,,,," _ <;<>n<liliona wll bo       EJcecuti"" DinIctor, PRDOH
                                                                                                                  <eviailo<!                           Drug DislIibutIon Cen""
                                                                                                                                                       Director and Ryln WhIto Port
                                                                                                                                                       BO_ondAOAP
                                                                                                                                                       CoooJIMIe<




                                                                                                                                                       --
3. AI>AP Eligibility. AOAPEl:         3.1, To"",""'an<l~lhIoAOAPProgIomdal<l                       May200a        3.1.~              TMPRDOH           Moodlcai<l Program [);f&CIor,
C8ny 001 1M   *"..  rninatlon 01
 ha AI>AP Program oIiglbmry
                                      blnk wilh tile M&<llcaid Prog..... data blink.                              Man0gM>8nt InlomultiOtl
                                                                                                                  Sl"l8m O/fice (OIAT. lor lis
                                                                                                                                                       Ryan WIll... Pa" B-Director
                                                                                                                                                       and ADAPCoordlnalO<. DrAT
"'rough !he f'llDOK Me<l1Cl1id                                                                                    $pInlsl1 ....-onyrn) .. ",,"""Oy
Program oIigibilily .yo<em. TN.                                                                                   ""'ld1ing both AI>AP ond
proj&CI wiD gua'a""" !hill only                                                                                   Medicaid Oola Bonita. A(IAP
paliOn.. "'Ig~ to \he AOAP will                                                                                   por$QlVloi o<e ",Iidatlng <lata
t>8 tIlo only o<>IS ""rvIc:ecl wl'"                                                                               thai h., olr8O<ly being
ADA?   mocl~!Ions.                                                                                                malc!>e<l b)'OIAT.




                                      -
                                      3.2. To program AI>AP oIigit>ility <;tIl<Iri3 Inc! d'nIc&I
                                      lriormalion <:ompulorfiol<l. k'I I RIlW ADAP "&CIrt>nlc
                                                                                                   May 2008       3.2.~              ADAPlncI
                                                                                                                  DIAl _no! ha"" oIreoo'y
                                                                                                                  109,""" uponlho <:omPlll'"
                                                                                                                  Ilol<l.,hat will t>8 odcIl<1to 1M

                                                                                                                                                       --
                                                                                                                                                       Moodicaid Program DinIctor,
                                                                                                                                                       Ryan Whi", Part B-Oirec1o<
                                                                                                                                                       Ind ADA!' CoordinalO<, OIAT
".. S'g'"
H~l
     .• >1

    ....,                               mWf'
                                        ~t'~l
j   '~'
    '>;
                                        ·P"
                                        53&'.,,5
                                        Il'."M"3_
~!J.!_,i
                                        '.,6"
                                                     .0
                                                        'I
    [il                                 iel.~S
        ,.
    I, .~                               ! Oll.""ci
                                          ,-
                                        _;,I;[ I:

        "                                                     ~lP'
'fE'I~n;             '~l!"
.. ,_. s. l5:1l'§ .. l.l§.                                    1<31'"                ~
3,,~0'       5'''~         ;i:'"                              nO'
h"O~' l~~g: !~Hi.l~                                           !~~                    "
B ;'l'~~l"
;i~§.~
i!l'!~~ilt
                 §'~'qil ·l~~:;il  ..
                         ~ :: !f.s.U
                                        ;iIJg~, ;~,
                                                              F,
                                                              II,~~                 t.
     1 ii' ~i!rj'~ ",,>
                                        Ui :~J
                                     , i!                                           ~
    m                ~l ;.1 Ii!  ili .h!
                                          ,,
                                                                                    [
    f
    .. 2. -
           ~f.!    i
    i' ,. II UJ.l 3 '-t
    9'lOg
                        5:: "':
                       '/'lit-
                     ~§9.e"H n!
                       2.1S. oil
                                  ..:


                                     iio; I[
    ·!i    ~ln
    I., ~,._.                        ;1!ao"
                                        3 ..
                                                     02.:
                                               il. ~ ",,:t'
                                                 1!.~:'
                                           ~
                                        CO·
                     ii
             ,- ,
             s ...                     :             55'1
        ~.! - ' 0
            '"   .i'




                                                                   .
        ~



       [I~ I                    •EI ~• I~               ~
                                  ~
    :"lr"J1I""8"<;'-'"
        ; - ".'                                  '"~....      :: 8':::      :5"!"
                                                              u·
                                                     .!"i "HI ~'i
        i~ ill ii"
        9-1
        z..
        'E•
        I
        l<~
                 iI    6"~,,,
                 i1ilj.i!

                       n~.
                       ~!
                       if!:
                                                     'n~itt..
                                                      ,
                                                     :~ i~~
                                                              sf
                                                              i §.
                                                                           1·
                                                                            [ 'l·
                                                                                I!
                                                                                    ~


        ~.
                                               H'~~QHI                   c" :til:
        ~!
        m'                       U                 1
                                               ' " 8 >',                 I '";"O~a;G-
                                                                                ~




                                 '.i
        -,                                     !,~g:':~Ull:
        m.1
        h
                                 H             '~Jl           m &':1..




                                                                                         APPENDIX C
                                               ~I~> , ••
                                                .
                                                                            [,.
        I.                                                                  -
                                               S&~~ i~='          h-




                                                                                           Page 9 of 9
                                                 ".!
                                                 ,            - -
                                                              oli
                                                              ,. 011
                                                                  » .

        "
